Case: 18-2187

Document: 003113308937

Page: 1

Date Filed: 08/01/2019

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2187

CHRIS ANN JAYE,
Appellant
v.
OAK KNOLL VILLAGE CONDOMINIUM OWNERS ASSOCIATION, INC.; ERICK
P. SPRONCK; ROBERT A. STEPHENSON; DENNIS LEFFLER; KELLY JONES;
JENNIFER COOLING; KONSTANTINOS RENTOULIS; THE ESTATE OF JOSEPH
COUSINS f/k/a JOSEPH COUSINS (deceased); MARILYN COUSINS; LES GIESE;
ANNE THORNTON; MAINTENANCE SOLUTIONS, INC., its agents and assigns;
CONDO MANAGEMENT MAINTENANCE CORPORATION, its agents and assigns;
RCP MANAGEMENT, ACCESS PROPERTY MANAGEMENT, its agents and assigns;
FOX CHASE CONTRACTING, LLC, its agents and assigns; TRACY BLAIR;
BERMAN, SAUTER, RECORD & JACOBS, PC, its agents and assigns f/k/a BERMAN,
SAUTER, RECORD & JACOBS; KENNETH SAUTER, ESQ. and CPA; EDWARD A.
BERMAN, ESQ.; STEVEN ROWLAND, ESQ.; BROWN, MOSKOWITZ & KALLEN,
PC., its agents and assigns; HILL WALLACK, its agents and assigns; MARSHALL,
DENNEHY, WARNER, COLEMAN & GOGGIN, its agents and assigns; SUBURBAN
CONSULTING ENGINEERS, its agents and assigns; SCHNECK, PRICE, SMITH &
KING, LLP, its agents and assigns; THE LAW OFFICES OF ANN M. MCGUFFIN, its
agents and assigns; WILLIAMS TRANSCONTINENTAL GAS PIPELINE, its agents
and assigns; CLINTON TOWNSHIP SEWERAGE AUTHORITY, its agents and
assigns; PUMPING SERVICES, INC., its agents and assigns; J. FLETCHERCREAMER & SONS, its agents and assigns; STRATHMORE INSURANCE, its agents
and assigns; QBE INSURANCE CORPORATION, its agents and assigns;
COMMUNITY ASSOCIATION UNDERWRITERS OF AMERICA, INC., its agents
and assigns; MIRRA & ASSOCIATES, LLC, its agents and assigns; JOHN DOES 1-20
(Fictitious Names); STEPHENSON ASSOCIATES, INC.; HENKELS AND MCCOY,
INC., its agents and assigns; FREY ENGINEERING; GNY INSURANCE
COMPANIES, its agents and assigns

On Appeal from the United States District Court
for the District of New Jersey

1 of 6

Case: 18-2187

Document: 003113308937

Page: 2

Date Filed: 08/01/2019

(D C. Civil Action No. l:15-cv-08324)
District Judge: Honorable Robert B. Kugler

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
July 19, 2019
Before: KRAUSE, SCIRICA and NYGAARD, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the District of New Jersey and was submitted pursuant to Third Circuit L.A.R.
34.1(a) on July 19, 2019. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 18, 2018, be and the same is hereby affirmed. Costs taxed against the
appellant. All of the above in accordance with the opinion of this Court.
ATTEST:
s/Patrcia S. Dodszuweit
Clerk
Dated: August 1, 2019

2 of 6

Case: 18-2187

Document: 003113309012

Page: 1

Date Filed: 08/01/2019

UNITED STATES COURT OF APPEALS FOR THE THTRD CIRCUIT
C.A. No. 18-2187
CHRIS ANN JAYE, Appellant
VS.
OAK KNOLL VILLAGE CONDOMINIUM OWNERS ASSOCIATION INC, ET AL,
(D.N.J. Civ. No. 1:15-CV-08324)
Present: KRAUSE, SCIRICA and NYGAARD, Circuit Judges

ORDER
Upon consideration of the Appellees’ motions for sanctions and motion to preclude
Appellant Chris Ann Jaye from filing further documents in this appeal, and Jaye’s
responses thereto, the Appellees’ motions are granted.
Jaye has filed in state and federal court numerous complaints and appeals, all of which
pertain to a dispute between her and her condominium association regarding unpaid
assessments and fees. Because of her repetitive and frivolous filings in the United States
District Court for the District of New Jersey, that court has (1) directed that the
defendants need not respond to Jaye’s motions unless ordered to do so, see Jaye v.
Hoffman, D.N.J. Civ. No. l:14-cv-07471 (order entered May 18, 2018); Jaye v. Hoffman,
D.N.J. Civ. No. 1:16-cv-07771 (order entered Apr. 9, 2018); (2) warned Jaye that “false
statements and reckless accusations of misconduct against Defendants in the face of clear
evidence to the contrary are potential grounds for sanctions against Plaintiff,” Jaye v. Oak
Knoll Vill, Condo. Owners Ass’n. Civ. No. l:15-cv-08324, 2016 WL 7013468, at *6
n.l 1 (D.N.J. Nov. 30, 2016); and (3) prohibited Jaye, when proceeding pro se, from filing
lawsuits “relating to disputes concerning the payment of her condominium fees, or
foreclosure proceedings, or any perceived conspiracies emanating out of them, Jaye v,
Shipp, D.N.J. Civ. No. l:17-cv-05257 (order entered May 18, 2018).
We, too, have warned Jaye that duplicative or frivolous motions may result in sanctions.
See Jaye v. Att’v Gen, New Jersey, C.A. No. 16-2641 (order entered Sept. 22, 2016);
Jaye v. Oak Knoll Vill, Condo. Assoc., C.A. No. 18-2187 (order entered Aug. 2, 2018);
Jave v. Oak Knoll Vill. Condo. Assoc.. C.A. No. 17-2564, 751 F. App’x 293, 300 (Sept.
13, 2018). In the case at bar, C.A. No. 18-2187, we advised Jaye that if “she continues to
make disparaging remarks against opposing parties, counsel, or judges or allegations of
criminal behavior or other wrongdoing by persons involved in the litigation that are not

Case: 18-2187

Document: 003113309012

Page: 2

Date Filed: 08/01/2019

Jave v. Oak Knoll Condominium Owners Association, et al.
C.A.No. 18-2187
Page 2
supported by clear evidence, she will be subject to sanctions, including monetary fines.”
(order entered Aug. 2, 2018).
Despite that warning, Jaye has continued her baseless attacks against opposing counsel,
accusing him of criminal conduct, using profanity to make her points, and threatening
him by referencing his children by name. For instance, in an email sent to opposing
counsel after he moved for sanctions, Jaye calls him a “complete and total illegal,
criminal ass,” a “shyster,” and a “piece of shit, scumbag lawyer.” She also accuses him
of “pullfingj this shit in the prior case,” of using “teeny-bopper tactics,” and of “trying to
hide your illegal and criminal acts behind these monstrous filings whereby you cry and
bemoan my conduct as a basis for relief in the law.” Jaye further states that “if there is
any justice, the world will come crashing down on YOU ...” and she “hopes [that his
children, who Jaye names] are in the prime of their life to see you dragged out in
handcuffs when it does!” Notice of Mot. (filed Nov. 27, 2018). Moreover, in a
submission opposing the appellees’ motion for sanctions, Jay accuses opposing counsel
of “illegal conduct,” calling him, inter alia, a “thief,” “embezzler,” “extortionist,”
“shyster,” and “conman.” Opp’n, p. 2 (filed on Dec. 7, 2018). Jaye also claims that he
“committed perjury and obstructed justice.” Id at 5. Jaye further claims that he is a “a
liar and a perjurer” who “uses his law license to steal.” Mot. to Suspend or Disbar, p. 3, 8
(filed on Dec. 7, 2018); see also Letter Br., p. 4 (filed on Jan. 16, 2019). But she offers
no specific evidence in support of those allegations, which appear baseless, vindictive,
and abusive.
Jaye also has sustained her attacks on state and federal judges and clerks. For example,
in the motion that she filed on November 16, 2018, Jaye complained of “the obvious
fraud by yet another judge (Judge Kugler).” In that motion, Jaye further claimed that
“the court a id its staff have rigged the filings in order to rig the outcomes.” Moreover,
Jaye has alleged that “judges and clerks alike have ensured my rights have been violated
... [a]nd they have proceeded on this time-wasting venture of fraud, lies and deception to
rig the outcome as advocates for the defendants.” Letter Br., p. 3 (filed on Jan. 16, 2019).
More recently, Jaye stated that judges of this Court “sit back on your useless, corrupt
asses and refuse to rule to undo any of the illegal acts you have done ....” Letter, p. 2
(filed on May 22, 2019). She also personally attacks District Court judges, calling Judge
Shipp an “idiot” and “filth,” and Judge Kugler “scum.” Id. at p. 3.
Based on Jaye’s failure to adhere to our prior admonitions, and her continued,
unwarranted attacks on opposing counsel, judges, and court staff, we impose on Jaye a
monetary fine of $1000, payable immediately. See Coghlan v. Starkey. 852 F.2d 806,

Case: 18-2187

Document: 003113309012

Page: 3

Date Filed: 08 01/2019

Jave v. Oak Knoll Condominium Owners Association, et al.
C.A.No. 18-2187
Page 3
808, 817 (5th Cir. 1988) (noting that courts of appeals have authority to impose
sanctions). The Clerk is instructed to not accept any further filings from Jaye until the
fine is paid in full. After the fine is fully paid, Jaye may file only one petition for
rehearing in this appeal. We also direct the Clerk not to accept for filing in this case any
other documents from her. See In re Oliver. 682 F.2d 443, 445 (3d Cir. 1982)
(recognizing power to issue orders to restrict the filing of meritless pleadings under the
All Writs Act, 28 U.S.C. § 1651(a)). Finally, given the abusive and frivolous nature of
Jaye’s submissions, the appellees need not file any responsive documents in any future
appeal filed by Jaye unless specifically directed to do so by the Court.
By the Court,

s/ Richard L. Nygaard
Circuit Judge
Dated: August 1, 2019
CLW/cc: Ms. Chis Ann Jaye
All Counsel of Record

